     Department of Homeland Security





            FEMA Public Assistance Grant Funds 

           Awarded to City of Virginia Beach, Virginia 





DA-12-14                                             March 2012

                                                                              Office ojlnsprctOf (},neral

                                                                              u.s. Department of Honxland Security
                                                                               Washington, DC   2O~2g




                                                                               Homeland
                                                                               Security
                                            MAn 2 7 2012

MEMORAN DUM FOR:                        MaryAnn E. Tierney
                                        Regional Administrator, Region III
                                        Federal Emergcnc~.gement Agenc~...... ,
FROM:                                   D. Michael     Beard            ' '"' ~----­
                                        Assistant Inspecta          enerlf/        r -
                                        Office of Emergency Management Oversight

SU BJECT:                               FEMA Public Assistance Granl Funds AW(lrded {()
                                        City a/Virginia Beach, Virginia
                                        FEMA Disaster Number 1862-DR-VA
                                        Audit Report Number DA-12-14

We audited public assistance funds awarded to the Ci ty of Virginia Beach, Virginia, (City) (BPS
Code 810-82000-00). Our audit objective was to detennine whether the City accounted for and
expended Federal Emergency Management Agency (FEMA) grant funds according to federal
regulations and FEMA guidelines.

As of August 8, 20 11 , the City had received a public assistance award totaling $2.6 million from
the Virginia Department of Emergency Management (State), a FEMA grantee, for damages as a
result of Tropical Depression Ida and a nor'easter that occurred in November 2009. The award
provided 75% FEMA funding for debris removal activities, emergency protective measures, and
                                                                                    1
pennanent repairs to facili ties. The award included 7 large and 52 small projects.

Our audit focused on the $ 1.9 million awarded lUlder the seven large projects (See Exhibit,
Schedule of Projects Audited). The audit covered the period November 11 , 2009, to August 8,
20 II , during which the City received $ 1.4 milli on of FEMA funds. At the time of our audit, the
City had completed all work under the projects.

We conducted this performance audit pursuant to the Inspector General Act of 1978, as
amended, and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit app lying the statutes, regulations, and FEMA
policies and guidelines in effect at the time of the d isaster.



I   Federal regulations in e ffect at the time of the disaster set the large proj ect threshold at $63,200.
We judgmentally selected project costs (generally based on dollar value); interviewed City,
State, and FEMA personnel; reviewed the City’s procurement policies and procedures; reviewed
applicable federal regulations and FEMA guidelines; and performed other procedures considered
necessary to accomplish our audit objective. We did not assess the adequacy of the City’s
internal controls applicable to its grant activities because it was not necessary to accomplish our
objective. However, we did gain an understanding of the City’s method of accounting for
disaster-related costs and its policies and procedures for administering the activities provided for
under the FEMA award.


                                     RESULTS OF AUDIT

The City generally accounted for $1.9 million of FEMA grant funds according to federal
regulations and FEMA guidelines. However, the City’s claim included $175,047 of questionable
costs, consisting of $93,817 of unsupported costs and $81,230 of ineligible project costs that
FEMA should disallow.

Finding A: Supporting Documentation

The City’s claim included $93,817 of charges for force account equipment use that were not
supported by adequate documentation. Cost Principles at 2 CFR 225, Cost Principles for State,
Local, and Indian Tribal Governments, Appendix A, Section C.1.j. state that a cost must be
adequately documented to be allowable under federal awards. We question the $93,817 of
unsupported charges as follows:

   •	 Under Project 45, the City claimed $90,734 for the use of multiple emergency generators
      and water pumps at various sewer pump stations during the period November 11–17,
      2009. However, the City did not have activity logs that identified the specific periods
      when the equipment was used (i.e., dates of use, along with beginning and ending times).
      As a result, we could not validate the costs claimed for use of the equipment.

   •	 Under Project 282, the City claimed $18,054 for various-sized dump trucks used in debris
      removal activities. However, the City had activity logs to support only $14,971 of
      equipment use, or $3,083 less than the amount claimed.

Finding B: Ineligible Project Costs

The City was reimbursed $81,230 under several large projects for costs that were not incurred.
The overpayments occurred because the State mistakenly reimbursed the City based on estimated
costs in the project worksheets rather than the actual costs to complete work authorized under the
projects. According to 44 CFR 206.205(b)(1), large projects are funded on documented actual
costs. We question the $81,230, as shown in table 1.




                                                 2

                              Table 1. Ineligible Project Costs
Project               Authorized              Amount      Amount       Actual      Amount
Number                  Work                 Awarded Received          Costs      Questioned
           Repairs to Guy Avenue
  293      Embankment                        $149,216 $149,216         $98,744       $50,472
  298      Repairs to Beach Access Sites     $299,542 $299,542        $296,462        $3,080
  282      Debris Removal                      $58,133     $58,133     $30,455       $27,678
  Total                                      $506,891 $506,891        $425,661       $81,230


                                  RECOMMENDATIONS 


We recommend that the Regional Administrator, FEMA Region III:

   Recommendation #1: Disallow $93,817 (federal share $70,363) of unsupported costs
   identified under Projects 45 and 282 (finding A).

   Recommendation #2: Disallow $81,230 (federal share $60,922) of ineligible costs
   identified under Projects 293, 298, and 282 (finding B).


            DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with City, State, and FEMA officials during our audit. We also
provided a written summary of our findings and recommendations in advance to these officials
and discussed them at the exit conference held on November 30, 2011. City officials agreed with
all of the findings except for finding A. They said they were going to search for source
documentation to support the generator use and provide such documentation in their response to
FEMA.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. To promote transparency, this report
will be posted to our website, with the exception of sensitive information identified by your
office. Significant contributors to this report were David Kimble, Adrianne Bryant, and
John Schmidt.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.

                                               3

cc:   	Administrator, FEMA
      Audit Liaison, FEMA Region III
      Audit Liaison, FEMA
      Audit Liaison, FEMA HQ (Job Code: G-11-046)
      Audit Liaison, DHS




                                         4

                                                            EXHIBIT

              Schedule of Projects Audited 

           November 11, 2009, to August 8, 2011 

                 City of Virginia Beach

            FEMA Disaster No. 1862-DR-VA 


Project   Amount          Amount          Amount
Number    Awarded         Claimed        Questioned     Finding
  45        $164,682         $164,682       $90,734        A
 111          108,973         108,973               -
 138           87,312          87,312               -
 176          113,432         113,432               -
 282          965,919         965,919         30,761     A, B
 293          149,216         149,216         50,472      B
 298          299,542         299,542          3,080      B
 Total     $1,889,076      $1,889,076      $175,047




                            5

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
